No. 19-1366
111/ ZETwe 6uprente

Court of tbe artiteb 6tatc5

SHIYANG HUANG, PETITIONER,
v.
VALESKA SCHULTZ, MELANIE WAUGH, ROSALIND STALEY,
INDIVIDUALLY AND ON BEHALF OF ALL OTHERS SIMILARLY SITUATED, ET AL.,
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

CERTIFICATE OF SERVICE
I hereby certify that on this 5th day of July 2020, I caused a PDF copy of the
Supplemental Brief of Petitioner to be served to the following via agreement by E-mail:
Mark G. Boyko
Gregory Y. Porter
Jeffrey R. Baron
mboyko@baileyglasser.com
gpbrter(0)baileyglasser.com
jbaron@baileyglasser.com
Mark K. Gyandoh
markg@capozziadler.com

Thomas J. Kavaler
tkavaler@cahill.com
James F. Bennett
jbennett@dowdbennett.com
Counsel for Respondents
Edward Jones et al.

Robert A. Izard
Mark P. Kindall
Douglas Needham
rizard@ikrlaw.com
mkindall@ikrlaw.com
dneedham@ikrlaw.com
Counsel for Plaintiffs Respondents
I further certify that all parties required to be served have been served. Under 28
U.S.C. ยง 1746, I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 5, 2020.
/s/ SHIYANG HUANG

โข

SHIYANG HUANG
Pro Per
2800 SW Engler Ct.
Topeka, KS 66614
(314) 669-1858
defectivesettlement, a.gmall.com

